FEDERAL COMMUNICATIONS
      COMMISSION
  OFFICE OF INSPECTOR GENERAL




         Report on the Audit of the
   Federal Communications Commission’s
        Auction-Related Accounting

        Audit Report No. 01-AUD-09-34
                January 4, 2005
                              Report on the Audit of the
                           FCC’s Auction-Related Accounting


EXECUTIVE SUMMARY

     The Office of Inspector General (OIG) has reviewed the Federal Communication
     Commission’s auction-related accounting activities to identify possible duplicative
     activities and to report on duplications or inefficiencies that adversely affect agency
     operations.


     The Omnibus Budget Reconciliation Act of 1993 authorized the Federal Communications
     Commission (FCC) to auction licenses for the use of portions of the electromagnetic
     spectrum. FCC held its first round of auctions in 1994. At the end of the of fiscal year
     (FY) 2004, FCC completed 53 auctions with total receipts exceeding $14 billion and
     plans to hold more auctions in the future.


     The Commission has been authorized to retain a portion of auction revenues to recover
     the expenses in developing and implementing the auction program. These additional
     funds are not required to go through FCC’s annual budgeting process for appropriated
     funds. Instead, they are annually apportioned to FCC by the Office of Management and
     Budget (OMB). However, before the FCC is allowed to access these funds, the
     Commission is required to issue an itemized statement of each expenditure in support of
     conducting auctions in its annual report to Congress.


     Since FY 1997, FCC has been receiving Auction Cost Recovery funds as allowed by
     legislation. However, each year the funding requests had been increasing noticeably and
     the Auction Cost Recovery funds now comprise nearly 25 percent of FCC’s total annual
     funding resources.


     The objectives of this review were: (1) to identify possible duplicative activities
     occurring in both the FCC’s auction-related accounting activities and FCC’s salary and
     expenditures-related accounting activities, and (2) to evaluate the annual Auctions
     Expenditure Report submitted to Congress in relation to the Reports Consolidations Act
     of 2000 and other reporting requirements of FCC.


     This review, conducted from August 2001 to February 2004, included historical review
     and analysis of FCC’s Auction Budget requests to OMB, and the FCC’s Budget
     Estimates submitted to Congress. We also reviewed FCC’s Auctions Expenditure
     Reports submitted to Congress. To explore alternatives for inclusion of auctions
     expenditures, we reviewed FCC’s financial and performance reports and several
     congressionally mandated reports specific to auctions activities.


     To gain an understanding of the budget development processes and expenditure report
     development process, we interviewed cognizant staff from FCC’s Wireless
     Telecommunications Bureau (WTB) and the Office of Managing Director (OMD). In




                                              i
                        Report on the Audit of the
                     FCC’s Auction-Related Accounting


addition, we interviewed staff at OMB to gain an understanding of the OMB’s
expectations related to the auctions budget.


We conducted this review in accordance with generally accepted government auditing
standards including review of management controls related to the objectives of this audit.


During our review, we found two similar accounting activities occurring in both WTB
and OMD: (1) the budget preparation process, and (2) expenditure report data
accumulation and reporting. Duplication of these activities has been inefficient and can
lead to unreliable reporting. However, during FY 2002, at OMB’s request, the budget
preparation process was removed from WTB and subsumed by OMD. Although this
strengthens the Auction Cost Recovery budget development process, some weaknesses
continue because of the timing, causing duplicative budgeting processes, unreliable
auction cost estimates reported to Congress, and the potential for mismanagement of
auction funds.


In addition, we observed significant deficiencies in the annual Auctions Expenditure
Report submitted to Congress. For an activity that consumes nearly 25 percent of FCC’s
resources, we found the report to be untimely, and providing little information informing
Congress about how those resources have been applied.


Overall, our audit disclosed three findings and makes ten recommendations regarding
auction-related accounting and financial management.




                                        ii
                                Report on the Audit of the
                             FCC’s Auction-Related Accounting


TABLE OF CONTENTS


  EXECUTIVE SUMMARY                                                                i


  BACKGROUND                                                                       1

  OBJECTIVES, SCOPE AND METHODOLOGY                                                2

  FINDINGS AND RECOMMENDATIONS                                                     3

  Finding 1: Timing of Auctions Cost Recovery Budget Development                   3
             Recommendations                                                       5

  Finding 2: Data Accumulation for the Auctions Expenditure Report                 5
             Recommendations                                                       7

  Finding 3: Auctions Expenditure Report                                            8
             Recommendations                                                       12


  APPENDICES

             I. Growth Rate Comparisons between the Auction Cost Recovery Budget
                and the Salaries and Expenses Budget

             II. Flowchart of FCC’s Auction Budget Preparation Process
                 (Prior to Fiscal Year 2002)

            III. Budget and Reporting Time Line for Auction Costs

            IV. Graphic Overview from the FY 2001 Auctions Expenditure Report

             V. Acronyms and Abbreviations

            VI. Memorandum from the Managing Director:
                Management Comments to the Draft Report on the Audit of FCC’s
                Auction-Related Accounting
                              Report on the Audit of the
                           FCC’s Auction-Related Accounting


BACKGROUND

    The Office of Inspector General (OIG) has reviewed the Federal Communication
    Commission’s auction-related accounting activities to identify possible duplicative activities
    and to report on duplications or inefficiencies that adversely affect agency operations.


    The Omnibus Budget Reconciliation Act of 1993 authorized the Federal Communications
    Commission (FCC) to auction licenses for the use of portions of the electromagnetic
    spectrum. FCC held its first round of auctions in 1994. At the end of the of fiscal year
    (FY) 2004, FCC completed 53 auctions with total receipts exceeding $14 billion and plans to
    hold more auctions in the future.


    In addition to extending FCC’s auction authority to September 30, 2007, the Balanced Budget
    Act of 1997 (PL 105-33) authorizes the Commission to retain a portion of auction revenues to
    recover the expenses in developing and implementing the auction program. These additional
    funds are not required to go through FCC’s annual budgeting process for its Salaries and
    Expenses (S&E) appropriated funds. Instead, the Auction Cost Recovery funds are annually
    apportioned to FCC by the Office of Management and Budget (OMB). However, before the
    FCC is allowed to access these funds, the Balance Budget Act requires the Commission to
    include an itemized statement of each expenditure in support of conducting auctions in its
    annual report to Congress beginning in FY 1997.


    FCC’s Wireless Telecommunications Bureau (WTB) is responsible for implementing the
    spectrum auctions. This bureau also prepares annual auction revenue estimates for FCC’s
    budget submission and until recently, compiled and prepared the budget for Auctions Cost
    Recovery funds. In addition, this division tracks and reports to Congress the auction
    expenditures as required by the Balanced Budget Act. Some of these financially-related
    auction activities are similar to those conducted for the agency by the Financial Operations
    Center within the Office of Managing Director (OMD).


    Since FY 1997, FCC has been receiving Auction Cost Recovery funds as allowed by the
    legislation. However, each year the funding requests had been increasing noticeably. Over
    time, the agency recognized many post-auction costs directly related to earlier auction
    activities. Many of these post-auction costs are associated with collecting auction proceeds
    and licensing. For example, a significant post-auction cost is management, including related
    litigation costs, of the auction loan portfolio installment payments established to allow small
    entity and others to participate in the spectrum auctions. More recently, FCC has recognized
    the need for additional pre-auction activities conducted outside of WTB to ensure that
    spectrum to be auctioned is available prior to auctioning.


    As pre and post-auction costs were identified, they were added to the Auction Cost Recovery
    budget. Many of these costs were identified by the offices and bureaus directly managing the
    specific activities, rather than by WTB. The expanded use of auction funds contributed to




                                            1
                                  Report on the Audit of the
                               FCC’s Auction-Related Accounting


     rapidly growing budget requests. Table 1, below, summarizes the increasing auction fund
     requests submitted to OMB for apportionment from FY 1998 to FY 2003.

     Table 1. Auction Cost Recovery Budget Estimates Submitted Each Year to the Office
              of Management and Budget for Apportionment

                       Fiscal Year         Budget Date            Estimated Cost
                          1998               2/3/98                $ 31,753,385
                          1999              10/30/98               $ 38,694,161
                          2000               9/5/01                $ 47,790,092
                          2001               9/15/02               $ 65,319,2291
                          2002              10/25/02               $ 100,470,712
                          2003               8/19/02               $ 112,446,958


     At the beginning of FY 2002, OMB questioned the reasonableness of the Auction Cost
     Recovery request, because of the significant growth rate in FCC’s auction budget. OMB
     observed that between fiscal years 1998 and 2002, the auction program budget grew at a
     faster rate than the S&E and that by FY 2002, the auction budget had grown to greater than
     25 percent of FCC’s combined appropriations and auction apportionment resources.2

     Figure 1 in Appendix I demonstrates the difference in growth rates between FCC’s
     appropriated S&E budget and the apportioned-only Auction Cost Recovery budget.


OBJECTIVES, SCOPE AND METHODOLOGY

     The objectives of this review were: (1) to identify possible duplicative activities occurring in
     both the FCC’s auction-related accounting activities and FCC’s salary and expenditures-
     related accounting activities, and (2) to evaluate the annual auctions expenditure report
     submitted to Congress in relation to the Reports Consolidations Act of 2000 and other
     reporting requirements of FCC.


     This review, conducted from August 2001 to February 2004, included historical review and
     analysis of FCC’s Auction Budget requests to the OMB for FY 1997 to FY 2003 and the
     FCC’s Budget Estimates submitted to Congress for FY 1998 to FY 2004. We also reviewed
     FCC’s Auctions Expenditure Reports submitted to Congress in accordance with the Balanced
     Budget Act of 1997, for FY 1997 to the most recent report for FY 2003. To explore
     alternatives for inclusion of auctions expenditures, we reviewed FCC’s financial and
     performance reports and several congressionally mandated reports specific to auctions
     activities.

     1
         For consistency, this table reflects the original FY 2001 Auctions Budget amount from September
         2000 budget submission. However, this amount was later amended to $70,306,781.
     2
         In response to OMB’s concerns, OIG issued an audit report titled, “Report on Audit of Auctions IT
          Capital Investment Practices,” Report number 02-AUD-03-12, dated September 12, 2003. This
          report details many of the expenditures that are driving the increases.


                                                 2
                                 Report on the Audit of the
                              FCC’s Auction-Related Accounting


       To gain an understanding of the budget development processes and expenditure report
       development process, we interviewed cognizant staff from FCC’s WTB and OMD. In
       addition, we interviewed cognizant staff at OMB to gain an understanding of the OMB’s
       expectations related to the auctions budget.


       We conducted this review in accordance with generally accepted government auditing
       standards including review of management controls related to the objectives of this audit.



FINDINGS AND RECOMMENDATIONS

       During our review, we found two similar accounting activities occurring in both WTB and
       OMD: (1) the budget preparation process, and (2) expenditure report data accumulation and
       reporting. Duplication of these activities has been inefficient and can lead to unreliable
       reporting. However, during FY 2002, at OMB’s request, the budget preparation process was
       removed from WTB and subsumed by OMD. Although this strengthens the Auction Cost
       Recovery budget development process, some weaknesses continue because of the timing,
       causing duplicative budgeting processes, unreliable auction cost estimates reported to
       Congress, and the potential for mismanagement of auction funds.

       In addition, we observed significant deficiencies in the annual Auctions Expenditure Report
       submitted to Congress. For an activity that consumes nearly 25 percent of FCC’s resources,
       we found the report to be untimely, and providing little information provided to Congress
       about how those resources have been applied.

       Overall, our audit disclosed three findings and makes ten recommendations regarding
       auction-related accounting and financial management.


Finding 1: Timing of Auction Cost Recovery Budget Development

       The timing of the Auction Cost Recovery budget is not synchronized with FCC’s S&E
       budget. This has created duplicative budgeting processes, unreliable auction cost estimates
       reported to Congress, and allows for mismanagement of auction funds.

       Initially, the Auction Cost Recovery budget development process was primarily coordinated
       by WTB because the auction program was managed as a relatively small project of the
       agency. At the time, most of the costs were directly related to preparing specific auctions and
       were generated by WTB. Because the funds were considered project-oriented, management
       of the funding resources was left at the bureau’s discretion and did not go through the same
       control processes used for appropriated funds. In addition, the use of auction proceeds was
       not recorded or tracked using the same processes as FCC’s appropriated funds.




                                               3
                              Report on the Audit of the
                           FCC’s Auction-Related Accounting


Through FY 2002, WTB prepared and compiled the agency’s auction budget as a unique3
program. Each bureau and office would submit its budget estimates to WTB requesting
funding for specific projects, information technology, training, travel, and full time
equivalents (FTEs) needed for the fiscal year. OMD estimated and added the human resource
costs of auction-related FTEs, summarized the information, and submitted the auction budget
to OMB for apportionment. (See flowchart and process description the auction budget
process in Figure 2 of Appendix II.)

Starting with the FY 2003 budget preparation, the auction budget development process was
modified in response to OMB’s request that FCC strengthen its controls over the use of
auction funds by treating them in the same manner as S&E funds are handled. FCC now
prepares and tracks the use of the auction funds using the same processes it uses for the S&E
budget which is coordinated by OMD.

However, OMB did not request that the auctions budget be prepared on the same cycle as
FCC’s S&E budget. Because the Auction Cost Recovery estimates are not prepared in the
same cycle as the S&E estimates, auction costs included in the annual S&E estimates
submitted to Congress had been significantly lower than the amounts requested for
apportionment at the start of each fiscal year. For example, in the April 2001 Fiscal Year
2002 Budget Estimates [for the S&E appropriation] submission to Congress, the estimated
Auction Cost Recovery amount was approximately $59 million. However, in October 2002,
the FY 2002 Auction Cost Recovery request to OMB for apportionment was for $82 million.4
The April 2001 estimates were based on current year expenditures plus an inflation factor.
Congress would not have been aware of the $23 million increase in the October OMB
apportionment request, which was approximately 39 percent more than April 2001 estimate.

           Auction Cost Recovery Estimates
            Document                                     Issued            Funding Request
            FY 2002 S&E Estimates to Congress            Apr. 2001         $ 59 million
            FY 2002 Apportionment request to OMB         Oct. 2002         $ 82 million
            Difference                                                     $ 23 million

The auction budget process remains completely separate from the S&E budget preparation.
For example, for the FY 2002 appropriations, the S&E budget call was made in July 2000 so
it could be reviewed by senior agency management before being submitted to OMB. After
the OMB’s “pass back,” the FY 2002 budget was submitted to Congress in April 2001 for
enactment. In comparison, the Auction Cost Recovery budget for FY 2002 was submitted to
OMB for review and apportionment in October 2002, after the fiscal year started and without
going through congressional review and approval. Figure 3 in Appendix III illustrates the
timing lags between the two budget development processes.


3
    The auction program is treated as a unique program to FCC, because it occasionally requires funding
    flexibility in the case of an emergency during an auction, or for last minute changes mandated by
    Congress.
4
    The total request was for more than $100 million, which included carryover funds and credit reform
    costs. For comparison with the earlier budget estimates to Congress, the $100 million has been
    adjusted to $82 million by eliminating $12 million of credit reform costs and $6 million of carryover
    funds, which were not combined in the budget submission to Congress.


                                             4
                                    Report on the Audit of the
                                 FCC’s Auction-Related Accounting


       Not only is it inefficient to prepare these budgets at two different times, but this duplicative
       process also has the potential for inefficient use of funds. For example, it is possible for a
       bureau or office to request auction funding for items either not approved during the earlier
       budget process, for cost reasons, or for items already approved, duplicating the request. In
       addition, there is no agency-wide coordination for using Auction Cost Recovery and/or S&E
       funds. Instead, each office and bureau is responsible for preventing duplicate requests.

       When OMB requested FCC to strengthen its budget process, it was assumed that the auction
       program could not prepare a budget earlier and needed the flexibility to prepare a budget
       closer to the apportionment. Although there are some occasions where direct auction
       activities need this funding flexibility,5 there are many routine pre and post-auction activities
       funded by auction proceeds that can, and should, be budgeted at the same time the S&E
       budget is prepared. Many of these administrative-type costs are independent of the level of
       auction activities, and should be predictable concurrent with the S&E budget preparation.
       For example, administration of the loan portfolio is a routine process which is not dependent
       on the level of auction activities during the fiscal year.

       Simultaneously preparing each budget would not only streamline the budget process, but
       should also strengthen the controls and reduce the possibility of unnecessary duplicating
       costs. However, if significant unexpected changes occur prior to apportionment of auction
       funds, the agency could modify its apportionment request to OMB with justification.

       Recommendations

       To ensure that the Auction Cost Recovery and Salaries and Expenses budgets are coordinated
       to eliminate inefficiencies and prevent potential mismanagement of funding, and to ensure
       that Congress is provided with relevant Auction Cost Recovery estimates, we recommend
       that the Managing Director:

                 1.       Coordinate the development of the Auction Cost Recovery budget with the
                          S&E budget so they are concurrent processes,

                 2.       Ensure that the Auction Cost Recovery estimates included in the S&E
                          estimate submission to Congress are developed using this process, and

                 3.       Develop and implement an agency-wide overview step or process that
                          ensures duplicative requests are identified and prevented.


Finding 2: Data Accumulation for the Auctions Expenditure Report

       The data accumulation process used for creating the annual Auctions Expenditure Report is
       independent of the financial systems of record. As a result, this duplicative process is
       inefficient, can lead to unreliable reporting, and is not subject to financial statement audit
       procedures.

       5
           For example, during FY 2002, FCC had to make last minute changes to its auction systems to reflect
           changes in the spectrum to be auctioned.


                                                   5
                             Report on the Audit of the
                          FCC’s Auction-Related Accounting


Beginning in FY 1997, an annual itemized expenditure report on the use of auction proceeds
was required by the Balanced Budget Act of 1997 to be included in FCC’s annual report.
Inclusion of this report was the only mandate FCC must meet in order to retain and use
auction funds. FCC has complied with this reporting requirement by preparing and issuing an
itemized expenditure report annually and submitting it directly to members of Congress.

Although the legislation authorizing the use of auction proceeds explicitly states that the
expenditure report is to be included in FCC’s annual report, in FY 1999 FCC was no longer
required to issue an annual report to Congress. The Reports Elimination Act of 1995
(PL 104-66) eliminated FCC’s annual reporting requirement beginning with FY 1999.
However, no changes were made on how FCC was to satisfy the auction expenditure
reporting requirements.

Preparation of the Auctions Expenditure Report is a laborious process coordinated by WTB.
A detailed description of each auction cost is recorded and tracked for reporting. For
example, the details of contracted services, purchases, and travel are tracked for reporting.
Because no existing financial system at FCC could provide the level of detail describing each
cost, a unique “Auctions Database” was developed by WTB to track the cost and description
of each auction funded non-personnel cost. However, all auction funded personnel costs are
tracked and compiled by the OMD, since these do not need a unique descriptor.

Most auction funded non-personnel costs are entered into the Auctions Database at the
commitment or obligation stages of the spending cycle.6 Each cost, regardless of the bureau
or office that initiated it, is entered by WTB into the Auctions Database for tracking. In
addition, the commitment or obligation is entered into the FCC’s official financial system,
Federal Financial System (FFS). However the Auctions Database does not feed the FFS
database; each item is entered into each system independently, resulting in redundant efforts
and delays in entering data into FCC’s official financial system.

The Auctions Database is updated when WTB receives information about an auction cost.
The FFS database is updated as expenditures are made reducing each obligation.

Because the two databases (Auctions and FFS) are not linked, nor receive downloads from
one or the other, they do not always reflect the same data. In addition, many costs such as
those from purchase cards may not be recognized by WTB as auction funded costs until later
during the expenditure report preparation process.

After the accounting records in FFS are closed at the end of each fiscal year, WTB updates
the Auctions Database to reflect the auction expenditures made for the year. A list is printed
and manually compared to an FFS printout of auction fund expenditures. The manual line-
by-line comparison can take about two months to match costs and identify differences
between the two reports. During this process, the Auctions Database is adjusted for any
differences. According to WTB, some costs are also reclassified in FFS as a result of the
comparison after the FCC has made its final adjustments for the financial statement audit.
However, the extent of the changes made or impacts, if any, to the financial statements could
not be determined.

6
    For the purposes here, the spending cycle is the defined in the following four stages:
    (1) Commitment, (2) Obligation, (3) Expenditure, and (4) Deobligation of unexpended balances.


                                           6
                          Report on the Audit of the
                       FCC’s Auction-Related Accounting


When the Auctions Database year-end total reconciles with FFS, a draft expenditure report is
prepared, reviewed, and edited by WTB management prior to issuing the final version to
Congress.

Accumulating data on detailed Auction Cost Recovery expenditures is time consuming,
duplicative and an inefficient use of resources. In addition, because of the report preparation
process, FFS data can be modified after it has already been included in other external reports
such as the financial statements, producing unreliable reports.

Recommendations:

To eliminate the inefficiencies of duplicative data tracking and accumulation, and increase
the reliability of the data in the Auctions Expenditure Report, we recommend that the
Managing Director:

        4.      Assess methods and/or alternative formats for streamlining the auction
                expenditure reporting process, eliminating the manual comparison process,
                and eliminating the duplicative data tracking processes. For example, some
                modifications (not all-inclusive) that should be considered include:
                    a) Assess the level of detail each auction expenditure needs to be
                        described and modify the database and collection process
                        accordingly;

                    b) Download FFS data and run a software model to compare the auction
                       expenditures from the auction expenditure database against FFS data
                       electronically, rather than manually;

                    c) Modify FFS to include a common field shared by the Auctions
                       Database for streamlined electronic comparisons, or

                    d) Modify FFS to include the detailed descriptor field, thus eliminating
                       the need for a separate auction expenditure database entirely and pull
                       data directly from FFS for the Auctions Expenditure Report.

        5.      Include specific data collection requirements for preparing an Auctions
                Expenditure Report in the development of the new managerial cost
                accounting system, Budget Execution and Management System (BEAMS),
                eventually replacing the Auctions Database.

        6.      Develop a process to ensure that all financial data is entered into FCC’s
                official financial system of record, FFS, prior to being entered into other
                unaudited system(s), ensuring the reliability and accuracy of the official
                system so that data will not be changed unnecessarily.




                                        7
                                    Report on the Audit of the
                                 FCC’s Auction-Related Accounting


Finding 3: Auctions Expenditure Report

       During our review of the Auctions Expenditure Report, we noted significant deficiencies.
       For any report to be useful, the information should be relevant and presented in a meaningful
       package. The standalone Auctions Expenditure Report, which represents the use of
       approximately 25 percent of FCC’s resources does not possess either of these characteristics.
       It has been untimely and generally uninformative.

       Relevancy of the Standalone Report
       Issuance of the Auctions Expenditure Report is nearly a year after the end of the fiscal year,
       making the information irrelevant. On the average, the process to prepare the Auctions
       Expenditure Report takes about 11 months. Its release to Congress tends to coincide with
       congressional review and deliberation of budgets related to the year subsequent to the current
       fiscal year. For example, the Auctions Expenditure Report for FY 2002 was issued in
       September 2003, while Congress deliberated on FY 2004 appropriations (see explanation D
       for Figure 3 in Appendix III.)

       In addition, although the report is issued to OMB as a courtesy, OMB has not found it useful
       for assessing current year apportionment requests and did not review or use the then currently
       released report on FY 2000 expenditures for making the FY 2002 apportionment.

       Legislative requirements do not specify a due date for the report because it was to be
       incorporated in the agency’s annual report, starting with FY 1997 annual report. However,
       most agencies’ performance and audited financial statement reports have replaced the need
       for annual reports.7 The due dates for these reports are specified by OMB guidance.
       Furthermore, to increase the usefulness of financial and performance information, the OMB
       due dates have been compressed from six months to 45 days after the fiscal year, starting with
       the FY 2004 reports, to increase the relevancy of the information provided in these reports.

       Table 2, below, summarizes the annual auction costs and when the reports were issued to
       Congress over the last seven years. On average, the Auctions Expenditure Reports have been
       issued 11 months after the end of the fiscal year.




       7
           The Reports Consolidation Act of 2000 (PL 106-531) authorizes and encourages the consolidation of
           financial and performance management reports, eliminating the duplication of efforts and
           uncoordinated reports.




                                                  8
                              Report on the Audit of the
                           FCC’s Auction-Related Accounting


Table 2.      Auction Costs Reported Each Year to Congress

                   Fiscal Year       Report Date        Reported Costs
                      1997             8/28/98            $ 25,151,173
                      1998             8/5/99             $ 36,178,451
                      1999             7/27/00            $ 47,873,724
                      2000             8/24/01            $ 57,667,546
                      2001             9/10/02            $ 75,539,157
                      2002             9/10/03            $ 93,561,114
                      2003             9/30/04           $120,871,9368


Quality of the Standalone Report
Although the report minimally meets the legislative requirements by providing an itemized
list of costs, its content is not presented in a meaningful package and may provide
unnecessary detail. The report does not provide any summaries of projects or activities that
would make the information useful. It is primarily a list of expenditures with more detail
than is required from FCC’s official financial systems. For example, the following
expenditure was the last item reported in the FY 2000 report (randomly selected):

          Document Control Number: NC00072710003
          BOCC9: 3132
          Description: Photographs of FCC Trade Show Booth in Chicago, Illinois
          Vendor: Oscar and Associates
          Total Obligation: $114

The reports do not summarize any auction-related activities during the year, or projected
auction activities where costs may have been expended during the year. Instead, the reports
provide a graphic overview of expenses compared to receipts. For example, in the overview
in the FY 2001 report the graph compares FY 1994-2001 expenses against cash receipts for
the same period. See Figure 4 in Appendix IV for a reconstruction of the pie graph, where
total auction revenues of $14 billion collected since 1994 was compared against two expense
slices. One slice is the combined cost of approximately $216 million for fiscal years 1994 to
2000, and the smaller slice represents approximately $75 million for FY 2001 costs.

Absent from the presentation is any discussion describing the funded activities. Without
adequate explanations, one can make misleading conclusions. For example, FCC conducted
41 auctions from FY 1994 to FY 2001 making the average cost per auction approximately
$7 million and average receipt per auction $351 million. This conclusion does not take into
account the unique aspects of each auction, where the expenditures and receipts can vary
dramatically. Nor does the report demonstrate the irregular flow of auction receipts, which is
presented in Table 3, below.

8
    For comparability with all the Auction Expenditure Report totals presented in this table, the FY 2003
    total includes $24 million of Credit Reform Costs which were presented as separate line items
    outside the detailed report for Auction Cost Recovery funds of $96.8 million. This was the first year
    these amounts were separated.
9
    BOCC stands for the Budget Object Classification Code


                                             9
                          Report on the Audit of the
                       FCC’s Auction-Related Accounting


Table 3.        Reported Annual Auction Receipts from FY 1995 to FY 2002

                   Fiscal Year          Auction Receipts
                      1995                   $ 7,644,221,531_
                      1996                     $ 227,193,989_
                      1997                   $ 3,525,037,876_
                      1998                     $ 783,689,813_
                      1999                   $ 1,052,124,096_
                      2000                     $ 150,000,000_
                      2001                   $ 1,024,281,687_
                      2002                                $ 0_
                      Total                $ 14,406,548,992_


In addition, the FY 2001 expenses were approximately 26 percent of the total costs of $291
million from FY 1994 to FY 2001. However, no explanation is provided to clarify the
circumstances or activities that may have caused this significant increase in spending.

Inconsistent Terminology
The report has been issued using the incorrect term for the costs being displayed. For
example, the FY 2000 transmittal letter refers to the report as, “…Auctions Expenditure
Report for fiscal year 2000…” The Balanced Budget Act requires that FCC report its
expenditures. However, in the attached 3-page overview and in the detailed lists that follow,
the costs are labeled “Obligations” instead of “Expenditures.” According to WTB preparers,
these have been mislabeled as Obligated, when the costs being reported are actually
Expenditures. This mislabeling has been in every Auctions Expenditure Report issued to
date.

Inconsistent Classification Schemes
There are three different classification schemes used for auction accounting, which can lead
to inefficient budgeting, tracking, and reporting. Although two the of the classification
schemes were developed internally by FCC for budgeting and accounting, neither is used to
report auction expenditures to Congress. Each classification scheme and its purpose is
described below.

¾ Budget Object Class Code (OMB-developed)
In the FY 2001 Auctions Expenditure Report, as well as all of the other reports, the pie graph
is followed by a summarized analysis of the reporting year expenditures and pages of
itemized expenditures sorted using OMB’s Budget Object Class Code (BOCC) framework of
the following nine categories:

        1.      Personnel Compensation
        2.      Personnel Benefits
        3.      Travel and Transportation of Persons
        4.      Transportation of Things
        5.      Rents, Communications, Utilities
        6.      Printing
        7.      Contracts – Other Services



                                        10
                             Report on the Audit of the
                          FCC’s Auction-Related Accounting


          8.        Supplies and Materials
          9.        Equipment

¾ Auction Cost Recovery for Budgeting (FCC-developed)
The Auction Cost Recovery budget calls (requests) sent from WTB to the offices and bureaus
requested estimates to be classified in one of the following 9 categories.10 Each category was
defined or described to help classify each cost when preparing the FY 2003 budget estimates:

          1.        Collections
          2.        General:
                    a. Administrative Operations
                    b. Information Technology
                    c. Human Resources
          3.        Internal Support
          4.        Auctions Conduct
          5.        Telecom
          6.        Information Technology – Bureau/Office Specific
          7.        IT Maintenance
          8.        Licensing – Shared
          9.        Licensing – Bureau Specific

¾ The Auction Cost Recovery for accounting (FCC-developed)
In addition, the Auction Cost Recovery Guidelines and Procedures,11 formalizing FCC’s
procedures for accounting for auction costs, requires that auction costs be accounted for using
the following pre-defined four categories:

          1.        Direct Auction Program Costs
          2.        Direct Commission Support
          3.        Information Systems Integration Costs, and
          4.        Post Auction Contract Assistance

These last two classification schemes were created by FCC to use in preparing the budget
and/or to track and report auction cost quarterly to FCC management. Because both contain
auction-related definitions, they are more useful for understanding how expenditures were
related to supporting the auctions program than is the BOCC classification scheme used in
the Auctions Expenditure Report. However, neither of these internally created classification
schemes has been used for the annual Auctions Expenditure Report.

A copy of the internally developed classification scheme and definitions used for the
FY 2002 auction budget (similar to the one used for FY 2003 Auction Cost Recovery for
Budgeting, above) was shared with an OMB representative to obtain an opinion on its
usefulness. The representative felt the well-defined scheme (with definitions included) would
be more useful than seeing each itemized cost presented by BOCC. The FCC internal
classifications give the reader a better understanding of how the funds were being applied.

10
     Because the classifications vary somewhat from FY 1998 to FY 2002, the FY 2003 budget
     classifications have been used as an example for this discussion.
11
     Revised 1999


                                             11
                          Report on the Audit of the
                       FCC’s Auction-Related Accounting


However, the OMB representative would prefer to see specific projects identified in the
expenditure report, but believed that is not possible without a good cost accounting system.

Relationships between the Auctions Expenditure Report and Other Agency Reports
Since FY 1999, because of its large loan portfolio and its auction activities, FCC has prepared
audited financial statements following OMB guidance and issued the statements in an annual
financial report. In addition, as required by Government Performance and Results Act of
1993, FCC prepares and issues a 5-year strategic plan, annual performance plans, and
performance reports following OMB guidance. We reviewed the financial and performance
reports for FY 2001 to see how the auction activities were discussed and if any information
could be related to the Auctions Expenditure Report and found little discussion in either of
these two reports on auction activities, although each included the number of auctions held
during the reporting year. Neither report included a discussion of projected auction activities,
nor auction-funded activities that would provide a better understanding of those expenditures
itemized in the Auctions Expenditure Report, which have grown to approximately 25 percent
of FCC resources.

The financial and performance reports are prepared by OMD, while the Auctions Expenditure
Report is prepared by WTB. Until the FY 2002 Auctions Expenditure Report was issued,
neither the Managing Director, nor the Chief Financial Officer were included in the
concurrence review to ensure consistency between the three reports.

In addition to the financial and performance reports, we reviewed other auction-related
reports to Congress to see if they might provide some information supporting the
expenditures reported in the Auctions Expenditure Report. Most of the reports were limited
to specific items and did not appear to provide good vehicles for linking auction expenditures
with activities. However, they did provide more auction-related information than either the
financial report or the performance report.

The Reports Consolidation Act of 2000 emphasizes consolidating similar reports increasing
their usefulness. In addition, accelerating the financial statement due dates emphasizes the
need for timely financial information which are now required to be issued with the annual
performance report in a Performance and Accountability Report (PAR). Currently the
standalone Auctions Expenditure Report provides neither relevant nor meaningful
information. In addition, the reliability of the information is reduced by not being developed
through the financial system of record, which is subjected to annual audits.

Recommendations:

To improve the quality of the Auctions Expenditure Report, we recommend that the
Managing Director reassess the reporting process to include:

        7. Identifying from the users of the report, members of Congress, OMB, and others,
           if they still need the report and/or what they need from the report. Specifically,
           determine if each expenditure described at a level of detail currently being
           tracked for each auction expenditure is needed, or rather, would combined BOCC
           totals be adequate. Determine whether the expenditure report should be included
           in the PAR now that the annual report requirement has been discontinued. The




                                        12
                  Report on the Audit of the
               FCC’s Auction-Related Accounting


     FCC should make a request to Congress to amend the legislation regarding the
     reporting requirements, if needed.

8. Identifying from FCC managers what they need from auction expenditure data
   and incorporate those needs into the managerial cost accounting system
   (BEAMS). For example, what information is useful for day-to-day management
   of auction resources.

9.   Coordinating the issuance of the Auctions Expenditure Report with issuance of
     FCC’s audited financial statements making the report more timely and part of
     the financial audit process. Incorporate the report with FCC’s annual Financial
     Report and/or Performance and Accountability Report and include a discussion
     about activities related to the expenditures being incurred increasing the
     meaningfulness of the report.

10. Including the Chief Financial Officer and the Managing Director on
    concurrence of the draft report to ensure consistency and awareness of all FCC
    financial reports submitted to Congress




                               13
                                    Report on the Audit of the
                                 FCC’s Auction-Related Accounting


Appendix      I.       Growth Rate Comparisons between the Auction Cost Recovery Budget
                       and the Salaries and Expenses Budget



                                       Budget Growth Rates
                                     From FY 1998 to FY 2002

                           60%


                           50%


                           40%


                           30%
                                                                   S&E Budget
                                                                   Auctions Budget
                           20%


                           10%


                            0%
                                   1999      2000      2001      2002

                          -10%

                                              Fiscal Year


                                                                                     Figure 1

           This figure demonstrates the difference in growth rates between FCC’s appropriated Salaries and
           Expenses (S&E) budget and the apportioned-only Auction Cost Recovery (Auctions) budget.

           Between fiscal years 2000 and 2001, while the S&E growth rated decreased to nearly zero, the
           auction budget growth rated exceeded 30 percent. The auction growth rate exceeded 50 percent
           between fiscal years 2001 and 2002, while the S&E rate remained fairly stable. By FY 2002, the
           Auction Cost Recovery budget had grown to greater than 25 percent of FCC’s combined
           appropriations and auction apportionment resources.
                           Report on the Audit of the
                        FCC’s Auction-Related Accounting


(C)   In February 2003, FCC submitted its S&E Budget Estimates for FY 2004 to Congress with
      FY 2002 Auctions Cost Recovery “actual” amounts reported of approximately $78 million.

(D)   The FY 2002 Auctions Expenditure Report was issued in September 2003 while Congress
      deliberated over enacting the FY 2004 budget requests. The report detailing $93 million of
      expenditures was issued nearly seven months after earlier reporting actual expenditures to
      Congress in its FY 2003 S&E Budget Estimates noted in item C above, of which $78 million
      was only from one resource.
                                     Report on the Audit of the
                                  FCC’s Auction-Related Accounting


Appendix       IV.     Graphic Overview from the FY 2001 Auctions Expenditure Report




                                     FY 1994 - 2001 Expenses to Cash Receipts Breakdown


                                    Cash Receipts


                                           14,406,548,992
                                               98.0%




                                                                               Expenses 1994-2000
                                                      Expenses 2001
                                                                               216,122,132
                                                                                  1.5%
                                                             75,539,157
                                                               0.5%




                                                                                                Figure 4

           Figure 4 is a reconstruction of the graphic presentation included in the FY 2001 Auctions
           Expenditure Report. The pie graph represents FY 1994-2001 expenses compared against cash
           receipts for the same period. Total auction revenues of $14 billion collected since 1994 has been
           compared against two expense slices. One slice is the combined cost of approximately $216
           million for fiscal years 1994 to 2000 and the smaller slice represents approximately $75 million
           for FY 2001 costs. The FY 2001 expenses were approximately 26 percent of the total costs of
           $291 million accumulated from fiscal years 1994 to 2001.
                                   Report on the Audit of the
                                FCC’s Auction-Related Accounting


Appendix     V.   Acronyms and Abbreviations


      B/O         Bureaus and offices

      BEAMS       Budget Execution and Management System

      BOCC        Budget Object Class Code

      FCC         Federal Communications Commission

      FFS         Federal Financial System

      FTE         Full-time equivalent

      FY          Fiscal year

      OIG         Office of Inspector General

      OMB         Office of Management and Budget

      OMD         Office of Managing Director

      PAR         Performance and Accountability Report

      S&E         Salaries and Expenses budget

      WTB         Wireless Telecommunications Bureau
                             Report on the Audit of the
                          FCC’s Auction-Related Accounting



Appendix   VI.   Memorandum from the Managing Director:

                 Management Comments to the Draft Report on the Audit of FCC’s Auction-
                 Related Accounting
